                          Office of Inspector General
                          Legal Services Corporation



3333 K Street, NW, 3rd Floor
Washingto n, DC 20007-35 58
202.29 5.1660 (p) 202.337.66 16 (f)
www.oig.lsc.gov




          March 24, 2014

          Ms . Lois Wood
          Executive Director
          Land of Lincoln Legal Assistance Foundation
          8787 State Street, Suite 201
          East St. Louis, IL 62203

          Dear Ms . Wood:

          Enclosed is the Office of Inspector General's (OIG) final report of our audit on Selected
          Internal Controls at Land of Lincoln Legal Assistance Foundation . The OIG reviewed
          your comments to the draft report and has made the corrections noted . Your comments
          are included in the final report as Appendix II.

          The OIG considers the proposed actions to address the report's four recommendations
          as responsive . However, all four recommendations will remain open until the OIG is
          notified in writing that the proposed action has been completed or implemented.

          We thank you and your staff for your cooperation and assistance .

          Sincerely,



          ~;:;:;,QC
          Inspec'tb r GeneV

          Enclosure

          cc:        Legal Services Corporation
                     Jim Sandman , President

                     Lynn Jenn ings, Vice President
                      for Grants Management




                                                                                     =il:LSC
                                                                                     II     Am.fico, P,,,ncr   F.., Equal J".I;.O
    LEGAL SERVICES CORPORATION
    OFFICE OF INSPECTOR GENERAL




FINAL REPORT ON SELECTED INTERNAL
            CONTROLS


   LAND OF LINCOLN LEGAL
   ASSISTANCE FOUNDATION

              RNO 514050

           Report No. AU14-01

              March 2014
             www.oig.lsc.gov
                                    INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Land of Lincoln Legal Assistance
Foundation, Inc. ("LOLLAF" or "grantee") related to specific grantee operations and
oversight. Audit work was conducted at the grantee's main office in East st. Louis,
Illinois and at LSC headquarters in Washington, DC.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee" ... is required
to establish and maintain adequate accounting records and internal control procedures"
The Accounting Guide defines internal control as follows:

              [T]he process put in place, managed and maintained by the
              recipient's board of directors and management, which is
              designed to provide reasonable assurance of achieving the
              following objectives :
              1. safeguarding of assets against unauthorized use or
                  disposition;
              2. reliability of financial information and reporting; and
              3. compliance with regulations and laws that have a direct
                   and material effect on the program .

Chapter 3 of the Accounting Guide further provides that each grantee "must rely
upon its own system of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and meeting the complete financial
information needs of its management.


                                    BACKGROUND

According to its website, Land of Lincoln Legal Assistance Foundation , Inc. (grantee)
was incorporated in 1972, combining seven local legal aid organizations, six formerly
under sponsorship of local bar associations and one sponsored by the Lawyers
Committee for Civil Rights Under Law. LOLLAF is governed by its own Board of
Directors made up of attorneys and eligible clients who live throughout their 65 county
service territory. As of 2012 , LOLLAF has five regional offices, three satellite offices , a
centralized Legal Advice & Referral Center and 83 employees, including 47 full-time and
part-time attorneys.

LOLLAF also indicates on its website that funding comes from LSC and other funding
sources such as the Lawyers Trust Fund, Illinois Attorney General , Illinois Department
of Human Services, US Department of Housing and Urban Development, local United
Way organizations, the Illinois Criminal Justice Information Authority, the Department of
Justice Violence Against Women Office, and Area Agencies on Ag ing . According to
LSC's grant award letter, LOLLAF received a $2,331,529 basic field grant in 2012 and a
$2,343,108 basic field grant in 2013. In addition, LOLLAF received $5.2 million in non-
LSC funding in 2012 .
                                              1
                                     OBJECTIVE

The overall objective was to assess the adequacy of selected internal controls in place
at the grantee as the controls related to specific grantee operations and oversight,
including program expenditures and fiscal accountability.       Specifically, the audit
evaluated selected financial and administrative areas and tested the related controls to
ensure that costs were adequately supported and allowed under the LSC Act and LSC
regulations.

                             OVERALL EVALUATION

In our opinion, the grantee needs to place more emphasis on establishing and
documenting some internal controls. While most of the controls were adequately
designed and properly implemented as they related to specific grantee operations and
oversight, some controls need to be implemented, strengthened, or formalized in
writing. Grantee disbursements tested generally were adequately supported and
allowable. Controls over the selected regulations reviewed were designed in a manner
expected to ensure compliance with the LSC Act and LSC regulations .

Controls over access to the grantee's accounting system need to be established. All
four of the accounting staff and the Executive Director have unrestricted access within
the accounting system. In addition, the system does not have the capability to create
an audit trail to identify which employees input the various transactions within the
system.

Controls over Client Trust Funds (CTF) need to be strengthened or established. CTF
Receipt forms, which are the forms used to record funds received, were missing certain
elements required by LSC's Accounting Guide. Also, CTF processing duties in the field
offices are not segregated.

The grantee had adequate policies and procedures over salary advances. Our test of
salary advances revealed that they were processed in accordance with the grantee's
policy.

LOLLAF does not track non-capitalized information technology (IT) equipment; the
grantee relies on an IT contractor to track that equipment for them. However, the
contractor stated it is not its responsibility to track IT equipment for the program. The
grantee also does not conduct biannual physical inventories of capitalized property as
required by LSC's Fundamental Criteria.

LOLLAF needs to develop and implement policies and procedures related to budgeting
and internal reporting, contracting, credit cards and derivative income. The practices in
use for these areas were generally in accordance with LSC's Accounting Guide.




                                            2
                                  AUDIT FINDINGS

Accounting System Access

Controls over access to the grantee's accounting system need to be established .
LOLLAF's accounting staff of four and the Executive Director all have unrestricted
access to the modules and functions within the entire accounting system. The
accounting staff consists of the Deputy Director of Finance and Administration
(DDOFA), two Program Accountants, and the Accounting Assistant. Each of these
employees has the ability to post, edit and delete transactions anywhere within the
system .

Moreover, the Accounting System does not have the capability to produce an audit trail
to show who posted transactions, including the initial entry of, changes to, or deletions
of accounting transactions. As such, there is no audit trail or audit history available for
review. The grantee has not implemented compensating controls to reduce the risk
associated with the inability to restrict access to or track who made changes within the
accounting system.

According to discussions with the DDOFA, the accounting system does not have the
capability to restrict access and the capability to provide an audit trail due to the age of
LOLLAF's accounting system. Consequently, there could be unauthorized transactions
entered into the system or unauthorized changes to or deletions of transactions already
in the system without management's approval or knowledge. The LSC Accounting
Guide, Section 2-5, states the following: "A recipient's accounting records should be
maintained on an automated system. Each recipient should establish the system most
appropriate to its needs and provide an adequate audit trail for all transactions ."

Restricting access to the accounting system and having the ability to produce an audit
trail of who made entries to the accounting system reduces the potential for fraud or
errors occurring or going undetected.

       Recommendation 1. The Executive Director should either update the accounting
       system or implement compensating controls to help reduce the risk of fraud or
       error.   Examples of compensating controls include manually preparing and
       reviewing transaction logs or periodic reviews of significant transactions or
       accounts by an individual who does not have access to the accounting system.

Client Trust Funds

Controls over Client Trust Funds (CTF) need to be strengthened or established. During
the period under review, CTF bank reconciliations were not being prepared correctly.
This contributed to an alleged theft of funds not being discovered for approximately
2 years . A grantee staff member reported to the OIG Hotline on June 19, 2013 , that an



                                             3
"alleged theft"1 of $617.44, which occurred approximately 2 years ago, was discovered
by the new Program Accountant.

According to the DDOFA, the new Program Accountant was instructed to re-perform all
the Client Trust Fund reconciliations, for the past 2 years to the current date. As a
result of performing those reconciliations, the Accountant was able to discover the
missing funds . LOLLAF subsequently made a payment of $617.44 to the client trust
account from its unrestricted funds account.

In addition to not properly preparing the reconciliations, our review of the CTF disclosed
three other control weaknesses that need to be addressed by the grantee:

1. The CTF Receipt form did not have all the elements required by the LSC Accounting
Guide. Missing from the form was the case number, method of payment and the
purpose for which the funds were received. According to the DDOFA, he was unaware
that there was a requirement for the CTF Receipt form to contain all the information
stated in the LSC Accounting Guide .

2. Duties for receiving and disbursing CTFs were not properly separated . The
secretary in each grantee office received funds from the clients after the amount was
determined by the case attorney. The secretary prepared the receipt and the deposit
slip and deposited the funds in the bank. The secretary also prepared the checks to
disburse CTF funds; updated the client's ledger and the cash journal; prepared the
outstanding checks report; and , prepared the reconciliations for the Managing Attorney
to review and approve. The DDOFA stated that the program does not have enough
employees to divide CTF responsibilities, especially in the regional offices. The DDOFA
added that there are as few as two to four transactions per month in some of the
regional offices . This is the reason the secretaries performed most of the CTF
functions.

3. Client trust fund escheatment requirements were not documented. According to
State of Illinois law, the grantee is required to escheat unclaimed property to the state
after 5 years. According to the DDOFA they have never had any funds that needed to
be escheated.

Establishing the proper internal controls ensures assets are protected and that fraud or
errors are prevented or timely detected . Compensating controls, though not as strong
as the ideal internal controls , provide at least some level of assurance that the fraud or
error risk is reduced .



1 A grantee employee reported through the OIG hotline, that there was misappropriation of funds from
the client trust account. The theft occurred 2 years earlier, but was discovered and confirmed on
Wednesday, June 19, 2013. A client allegedly gave cash to her attorney, but the funds were neve r
deposited to the bank. A receipt was issued and an entry made in the individual client ledger for
$617.44. The attorney claimed that she gave the cash to the Admini strative Secretary, who had no
recol lection of th e event. The alleged theft happened at the Central Region Office in East St. Louis.

                                                   4
      Recommendation 2. The Executive Director should ensure adequate controls
      over CFTs are documented, in place, and operating as designed. If necessary,
      compensating controls should be established to provide some reasonable
      assurance that fraud or errors will be prevented or detected in a timely manner.

Policies and Procedures

In addition to the areas listed above, policies and procedures for four areas reviewed
were not in writing. Policies and procedures for two other areas needed strengthening.

1. Documenting Policies and Procedures. The grantee did not document its policies
and procedures in use for four areas. These areas were Budgeting and Reporting ,
Contracting, Credit Cards, and Derivative Income. While our review disclosed that the
practices employed by the grantee were adequate for each of the areas, those practices
were not in writing.

2. Strengthening Policies and Procedures. Although the grantee does have written
policies and procedures in the areas of property, the policies and procedures needed to
be strengthened. The grantee's policies and procedures covering property did not
address the following:

      a.     Procedures and documentation requirements for disposing of obsolete
             property.
      b.     The process and frequency of conducting physical inventories. The
             grantee does not conduct the required biannual physical inventory of
             property.
      c.     Procedures for controlling and tracking non-capitalized IT equipment that
             may contain sensitive or privileged information.

To maintain an adequate internal control structure to safeguard program resources,
each grantee must develop a written accounting manual that describes the specific
procedures to be followed by the grantee in complying with the Fundamental Criteria
contained in the LSC Accounting Guide. Documented policies and procedures are an
important part of internal control because the policies and procedures describe the
control design, communicate management's expectations to the entire staff, help ensure
consistent performance of activities over time, and provide much needed information so
that staff members understand their roles and responsibilities.

Recommendations. The Executive Director should ensure that:

      Recommendation 3. LOLLAF's Accounting Manual contains written policies and
      procedures addressing Budgeting and Internal Reporting, Contracting, Credit
      Cards, and Derivative Income.

      Recommendation 4. Written policies and procedures for property address all
      required areas contained in LSC's Accounting Guide.


                                           5
             SUMMARY OF GRANTEE MANAGEMENT COMMENTS

Grantee management agreed in principle with all the findings and recommendations
contained in the report. They have already begun to examine new accounting software
and anticipate going live with the new software at the beginning of their next fiscal year
on January 1, 2015. The prior Deputy Director of Finance & Administration had revised
and implemented some CFT controls and policies. The current Deputy Director of
Finance and Administration is reviewing those policies to ensure they are adequate.
The grantee is also considering moving local CFT accounting to a restricted portion of
their accounting system or to an independent Quick Books system .

The Executive Director has instructed the Deputy Director of Finance and
Administration to have written policies and procedures on budgeting and internal
reporting, contracting, credit cards and derivative income presented to the Board of
Directors and approved before the end of 2014 . Lastly, the Executive Director has
instructed the Deputy Director of Finance and Administration to review the current
written policies and procedures on property to ensure they address all required areas
contained in LSC's Accounting Guide. Upon review and revision of these policies and
procedures, grantee management will conduct an inventory as set forth in those
policies. A copy of management's response is included as an appendix to this report.


             OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS

The OIG considers management comments responsive to the findings and
recommendations contained in the report. The grantee's planned actions to obtain an
accounting system, implement new CTF policies and procedures, document policies
and procedures on budgeting and internal reporting , contracting , credit cards and
derivative income and to review their current written property procedures should correct
the issues identified in the report.

The OIG considers all four recommendations open . Until the new accounting system
has been implemented and the CTF policies have been reviewed and deemed
adequate by the new Deputy Director of Finance and Administration, Recommendations
1 and 2 will remain open. Also, until all the above identified policies and procedures are
written and approved by the grantee's Board of Directors, Recommendation 3 is also
considered open . Lastly, until the Deputy Director of Finance and Administration has
reviewed and revised the grantee current policies on property, we will consider
Recommendation 4 open .




                                            6
                                                                        APPENDIX I
                             SCOPE AND METHODOLOGY

To accomplish the audit objective, the OIG identified , reviewed, evaluated, and tested
internal controls related to the following activities:

             •   Cash disbursements
             •   Contracting
             •   Cost Allocation
             •   Credit Cards
             •   Salary Advances
             •   Property and Equipment
             •   Internal Management Reporting and Budgeting
             •   Client Trust Fund
             •   Derivative Income

To obtain an understanding . of the internal controls over these areas, policies and
procedures were reviewed , including manuals, guidelines, memoranda, and directives
setting forth current practices. Grantee officials were interviewed to obtain an
understanding of the internal control framework, and management staff were
interviewed as to their knowledge and understanding of the processes in place . To
review and evaluate internal controls, the grantee's internal control system and
processes were compared to the guidelines in the Fundamental Criteria of an
Accounting and Financial Reporting System (Fundamental Criteria) contained in the
Accounting Guide.

We assessed the reliability of computer generated data provided by the grantee by
reviewing source documentation for entries selected for review. We determined that the
data were sufficiently reliable for the purpose of this report.

To test controls and the appropriateness of expenditures, disbursements from a
judgmentally selected sample of employee and vendor files were reviewed. The sample
represented 17.9 percent of the approximately $1 .2 million disbursed for expenses other
than payroll during the period January 1, 2012 to June 30, 2013 and consisted of 92
transactions totaling $215,005.20.

To assess the appropriateness of grantee expenditures, we reviewed supporting
documentation such as invoices and vendor lists, and traced expenditures to the
general ledger. The appropriateness of grantee expenditures was evaluated on the
basis of the grant agreements, applicable laws and regulations, and LSC policy
guidance.

To evaluate and test internal controls over contracting, credit card use , derivative
income , internal management reporting and budgeting, and property inventory, we
interviewed appropriate program personnel, examined related policies and procedures,

                                           1- 1
and selected specific transactions to review for adequacy. To gain an understanding of
the cost allocation process, we discussed the process with grantee management and
requested , for review, the grantee's written cost allocation policies and procedures as
required by the Fundamental Criteria. To review internal controls over compliance with
select provisions of specific LSC regulations (45 CFR Parts 1612 and 1617), we
examined written compliance policies and procedures , including applicable LSC
mandated record keeping requirements, reviewed applicable documentation and reports ,
and interviewed staff to determine if the controls were designed in a manner to ensure
compliance with the provisions of LSC regulations reviewed.

This review was limited in scope and not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations.

The on-site fieldwork was conducted at the grantee's main office in East SI. Louis, IL
from July 8, 2013 to July 17, 2013. Documents reviewed pertained to the period
January 1, 2012 to June 30, 2013. The remainder of our work was conducted at LSC
headquarters in Washington, DC .

This aud it was conducted in accordance with generally accepted government aud iting
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.




                                          1-2
                                                                                                APPENDIX ..




REGIONAL OFFICES:                      ADMINISTRATIVE OFFICE                               REGIONAL OFFICES:
                               DOROTHY O. COOK COMMUNITY LAW CENTER
EASTERN:                                                                                   SOUTHERN:
CHAMPAIGN                           8787 STATE STREET, SUITE 201
                                                                                           CARBONDALE
SATELLITE : CHARLESTON                 EAST ST. LOUIS , IL 62203                           SATELLITE: MT. VERNON
NORTHERN:                               TELEPHONE:       (618) 398-0574                    WESTERN:
SPRINGFIELD                                                                                ALTON
SATELLITE : DECATUR                     FAX:             (618) 398-0681
                                        E-MAIL:          cdain@lollaf.org                  CENTRAL
                                                                                           EAST ST. LOUIS

     March 13,2014

     Mr. Ronald D. Merryman
     Assistant Inspector General for Audit
     Office of the Inspector General
     Legal Services Corporation
     3333 K Street NW 3'd Floor
     Washington, DC 20007-3558

     RE: Draft Report on Selected Internal Controls: Report No. AU14-XX

     Dear Mr. Merryman:

     Thank you for the opportunity to provide comments on the Draft Report of the audit your staff
     conducted last summer. As you already know, the long term employee serving as Deputy
     Director of Finance & Administration at the time of the audit retired on December 31 , 2013 . His
     successor, who was present for the audit process, found the audit exit conference quite useful in
     planning which issues would be addressed first during 2014. Before commenting on the specific
     recommendations made in the draft report, we would like to clarify a couple of things mentioned
     in the text of the report.

     In the last sentence on page I you write, "In addition, LOLLAF received $8.4 million in non-
     LSC funding in 2012." Actually, our total revenue, including donated services, was $8.4 million
     in 2012. Of that total, $5.2 million was non-LSC funding, of which just under $1.0 million were
     donated services.

     In the third sentence of the footnote on page 4 regarding the missing funds form our client trust
     account you write, "A client allegedly gave cash to the program's receptionist..." The client
     actually gave the cash to her attorney. Two sentences later you write, "The receptionist claimed
     that she gave the funds to the petty cash officer; however the petty cash officer has no
     recollection ..." The sentence should state that the attorney claimed that she gave the cash to the
     Administrative Secretary, who had no recollection of the event. Finally, in the last sentence you



                            jj!bLSC
March 13,2014
Mr. Ronald D. Perryman
Page 2

write, "The alleged theft happened at the Joliet office location." The incident actually happened
at the Central Region Office in East St. Louis. Joliet is not in our service territory.

Land of Lincoln concurs with Recommendation I. The accounting staff had already begun to
examine new accounting system software prior to the receipt of this draft report. Our current
time line includes choosing a new system by mid 2014, installing the system and training the
accounting staff during the second half of 20 14, and barring any complications, going live at the
start of our next fiscal year on January 1,2015.

Land of Lincoln concurs with Recommendation 2. The prior Deputy Director of Finance &
Administration had revised and implemented some CFT controls and policies prior to receipt of
this draft report. At the request of the Executive Director, our current Deputy Director of
Finance & Administration is reviewing these policies and controls to make certain that they will
be adequate. One thing being considered is moving local CFT accounting to a restricted portion
of our new accounting system or to create an independent Quick Books system instead of using
the current self-generated Excel forms.

Land of Lincoln concurs with Recommendation 3. The Executive Director has instructed the
Deputy Director of Finance & Administration to have written policies on Budgeting & Internal
Reporting, Contracting, Credit Cards and Derivative Income reviewed by the OIG, presented to
its Board of Directors and approved before the end of2014.

Land of Lincoln concurs with Recommendation 4. The Executive Director has instructed the
Deputy Director of Finance & Administration to review our current written policies and
procedures for property to ensure that they address all required areas contained in the LSC' s
Accounting Guide. Upon review and revision of these policies and procedures, the Deputy
Director will conduct an inventory as set forth in those policies.

We look forward to receiving your final report.



               Sincerely,

                                              q~7L)2!~
               Lois Wood                     Christopher A. Dain
               Executive Director            Deputy Director of Finance & Administration




                                                      United
                      ,!!..LSC                            Way
